Ti

@QCKLE

= E-Mail Address:
Le ga 1B ae S fs contact@cocklelegalbriefs.com
St. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-26

BRITTANY BILLETTS, ET AL.,
Petitioners,
ov.
MENTOR WORLDWIDE LLC,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF IN OPPOSITION in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 6957 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 8th day of October, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

GENERAL NOTARY-State of Nebraska & - Z g
RENEE J. GOSS 9 i ( eal °
Notary Public

My Comm. Exp. September 5, 2023
Affiant 41395
